HHS/OIG, Audit - "Audit of Pathology Laboratory Services Claimed by
Florida Urology Physicians, P.A. for the Period September Through December 2004," (A-04-05-03005)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Pathology Laboratory
Services Claimed by Florida Urology Physicians, P.A. for the Period September
Through December 2004," (A-04-05-03005)
June 28, 2007
Complete
Text of Report is available in PDF format (559 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit
objectives to (1) determine whether Florida Urology Physicians, P.A. (the
Practice) claimed reimbursement for pathology laboratory services in accordance
with Medicare Part B requirements from September through December 2004 and (2) analyze the Practice's utilization and pattern for pathology services.  The Practices claims for pathology laboratory services generally
complied with Medicare Part B requirements.  We noted an increase in the number
of pathology services requested and performed after the Practice opened its own
laboratory, which increased costs to the Medicare program.
However, the Practice explained that the increased number
of tissue examination requests were an attempt to more fully meet the needs of
its patients.  The audit report did not contain any recommendations for the
Practice.